Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  CHILDREN’S USE OF HEALTH
   CARE SERVICES WHILE IN
    FOSTER CARE: TEXAS




                    Inspector General

                    FEBRUARY 2004
                    OEI-07-00-00641
                Office of Inspector General

                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95- 452, as
amended, is to protect the integrity of the Departmen t of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the follo wing operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts short- term management and
program evaluations (called inspections) that focus on issues of concern to the department,
the Congress, and the public. The findings and recommendations contained in the
inspections reports generate rapid, accurate, and up- to- date information on the efficiency,
vulnerability, and effectiveness of departmental programs.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of OI lead to criminal convictions,
administrative sanctions, or civil monetary penalties. The OI also oversees state Medicaid
fraud control units, which investigate and prosecute fraud and patient abuse in the Medicaid
program.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal
support in OIG's internal operations. The OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising under
the Civil False Claims Act, develops and monitors corporate integrity agreements, develops
model compliance plans, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
A B S T R A C T 



                              Our study determined that all 50 sampled children in the Texas
                              foster care program received Medicaid services, and the majority
                              received their most recent required Early and Periodic Screening,
                              Diagnosis, and Treatment (EPSDT) medical examinations.
                              However, the percentage of children receiving their required initial
                              medical and dental screenings was substantially lower, and
                              compliance with guidelines for vision and hearing screenings was
                              undocumented. The Office of Inspector General (OIG) also
                              determined that case plans were not completed within required
                              timeframes for over half of the sampled children, and foster care
                              providers for almost half of the children never received a written
                              medical history for the children in their care. OIG recommends
                              that the Administration for Children and Families (ACF) work with
                              the Texas Department of Protective and Regulatory Services to
                              increase the number of: initial medical and dental screenings that
                              are received within required timeframes; initial case plans that are
                              completed within required timeframes; and, foster care providers
                              who are supplied available medical information for the children in
                              their care, as required by Federal regulations. OIG recommends
                              that the Centers for Medicare & Medicaid Services (CMS) work
                              with the Texas Department of Health to evaluate the need for
                              documentation to ensure compliance with routine EPSDT vision
                              and hearing screening guidelines. ACF noted that it is working
                              with the State to accomplish goals established in a Program
                              Improvement Plan (PIP) developed as a result of a Child and
                              Family Services Review. One of the goals of the PIP focuses on the
                              health and mental health care of children in the child welfare
                              system. CMS concurs with our recommendations and indicates
                              that they are available to provide technical assistance to the State
                              to promote provider education regarding the frequency schedule
                              requirements and appropriate documentation of vision and hearing
                              screenings.




O E I - 07 - 00 - 0 0 6 4 1   C H I L D R E N’ S U S E   OF   H EALTH C ARE S E R V I C E S WH I L E   IN   F O S T E R CA R E : T E X A S   i
E X E C U T I V E                                             S U M M A R Y 




                              OBJECTIVE
                              To determine whether sampled children in the Texas foster care
                              program receive health care services.


                              BACKGROUND
                              Currently, there are an estimated 534,000 children in foster care
                              nationwide, many of whom are reportedly in poor health.
                              Compared with children from the sam e socioeconomic backgrounds,
                              these children suffer much higher rates of serious physical and
                              psychological problems. Texas is the focus of this inspection and is
                              one of a series of eight States chosen to represent a diverse
                              cross-section of foster care nationwide.

                              All children in the Texas foster care program are eligible for
                              Medicaid. Federal Early and Periodic Screening, Diagnosis, and
                              Treatment (EPSDT) guidelines require each State to provide
                              coverage of preventive health care services to Medicaid-eligible
                              individuals under the age of 21, at intervals which meet reasonable
                              standards of medical and dental practice, as outlined in
                              Section 1905(r) of the Social Security Act (the Act). In addition,
                              Section 471(a)(22) of the Act requires States to develop and
                              implement standards to ensure that all children in foster care
                              placements are provided quality services that protect their health.

                              This inspection is based on information gathered from multiple
                              sources: reviews of Federal and State policies; analysis of
                              child-specific Medicaid claims data and case file documentation for
                              50 randomly sampled children in the Texas foster care program;
                              interviews with foster care providers and caseworkers for the
                              children in our sample; and interviews with Tex as Department of
                              Protective and Regulatory Services, Department of Health, and
                              other State agency officials. Our analysis focused on a 3-year
                              Medicaid claims history for the period September 1, 1999 through
                              August 31, 2002.


                              FINDINGS
                              All sampled children had Medicaid coverage and claims for
                              services
                              All of the sampled children had Medicaid coverage and at least one
                              Medicaid claim for health care services.

O E I - 07 - 00 - 0 0 6 4 1   C H I L D R E N’ S U S E   OF   H EALTH C ARE S E R V I C E S WH I L E   IN   F O S T E R CA R E : T E X A S   ii
E   X   E      C      U       T       I   V   E         S      U         M     M     A      R     Y


                                              Ninety-four percent of sampled children received their most
                                              recent EPSDT medical examinations, and 92 percent
                                              received their most recent EPSDT dental examinations, in
                                              accordance with State guidelines
                                              Nearly all of the sampled children had received their most recent
                                              EPSDT medical and dental examinations at the time of our review.
                                              A high percentage of the children who had received their most
                                              recent EPSDT medical and dental services, according to the State’s
                                              frequency guidelines, had a foster care provider that knew the
                                              correct EPSDT frequency schedule for the child in its care.

                                              Seventy-five percent of sampled children received initial
                                              medical examinations, and 66 percent of sampled children
                                              received initial dental examinations, within required
                                              timeframes
                                              Substantially fewer sampled children received initial medical and
                                              dental examinations within required State timeframes than
                                              children who received EPSDT medical and dental examinations
                                              that met State frequency guidelines. Data collected by the Office of
                                              Inspector General suggest that it may be difficult to quickly locate
                                              dental providers for initial visits.

                                              Compliance with State guidelines for vision and hearing
                                              screenings was undocumented
                                              Texas requires that a hearing and vision screening be performed
                                              during each EPSDT medical examination. Our review of case file
                                              documentation provided no evidence of a vision screening for
                                              58 percent (29/50) of the children in our sample, and no evidence of
                                              a hearing screening for 66 percent (33/50) of the children in our
                                              sample at the time of their most recent EPSDT medical
                                              examination. The Centers for Medicare & Medicaid Services (CMS)
                                              no longer requires States to submit data on the number of children
                                              who received a vision or hearing screening through the State’s
                                              EPSDT program. Likewise, medical providers in Texas are not
                                              required to “itemize” the components of an EP SDT medical
                                              examination when billing for reimbursement.

                                              Seventy-six percent of sampled children received Medicaid
                                              mental health services
                                              Federal law requires that a case plan be developed for each child in
                                              Title IV-E foster care that includes a plan for en suring that the


        O E I - 07 - 00 - 0 0 6 4 1           C H I L D R E N’ S U S E   OF   H EALTH C ARE S E R V I C E S WH I L E   IN   F O S T E R CA R E : T E X A S   iii
E   X   E      C      U       T       I   V   E         S      U         M     M     A      R     Y


                                              child’s needs are addressed while s/he is in foster care. Texas
                                              requires that a case plan be developed for each child in foster care
                                              that includes an assessment of the child’s mental health needs. For
                                              the 50 children in our sample, 44 percent (22/50) had initial case
                                              plans that were completed within the required timeframe (within
                                              45 days of entering care). Seventy-six percent (38/50) of the
                                              children in our sample had Medicaid claims for mental health care
                                              services. The case plans for the 12 children who did not have
                                              Medicaid mental health claims indicated that their mental health
                                              needs were assessed, and only 2 indicated a need for services that
                                              were not received.

                                              Forty-six percent of foster care providers reported never
                                              receiving a medical history for the sampled child in their care
                                              Federal law requires that a child’s health records be given to the
                                              foster care provider at the time of placement. The provision of this
                                              information is important to ensure that appropriate health care
                                              services are provided to children in foster care. Foster care
                                              providers for 46 percent (23/50) of the sampled children reported
                                              never receiving a medical history for the child in their care.
                                              However, caseworkers for 19 of these 23 children reported receiving
                                              or compiling a medical history for the child. Foster care providers
                                              for children assigned a lower level of care (i.e., children with few or
                                              no medical and/or mental health problems) were less likely to
                                              report receiving a medical history for the child in their care than
                                              providers caring for a child assigned a higher level of care (i.e., a
                                              child with moderate to severe medical and/or mental health
                                              problems).


                                              RECOMMENDATIONS
                                              To ensure that children in foster care receive health care services in
                                              accordance with Federal guidelines, we recommend that:

                                              The Administration for Children and Familes (ACF) work with the
                                              Texas Department of Protective and Regulatory Services to
                                              increase the number of

                                              o	      Initial medical and dental screenings that are received within
                                                      required timeframes

                                              o	      Initial case plans that are completed within required
                                                      timeframes


        O E I - 07 - 00 - 0 0 6 4 1           C H I L D R E N’ S U S E   OF   H EALTH C ARE S E R V I C E S WH I L E   IN   F O S T E R CA R E : T E X A S   iv
E   X   E      C      U       T       I   V   E         S      U         M     M     A      R     Y


                                              o	      Foster care providers who are supplied available medical
                                                      information for the children in their care

                                              The Centers for Medicare & Medicaid Services work with the Texas
                                              Department of Health to

                                              o	      Evaluate the need for documentation to ensure compliance with
                                                      routine EPSDT vision and hearing screening guidelines


                                              AGENCY COMMENTS
                                              ACF indicated that it is working with the Texas Department of
                                              Protective and Regulatory Services, to assist the State in
                                              accomplishing goals established in a Program Improvement Plan
                                              developed as a result of a Child and Family Services Review. Child
                                              and Family Services Reviews measure individual States’
                                              performance related to the health and well-being of children in the
                                              child welfare system. ACF stated that indicators in the Child and
                                              Family Services Review specifically track the areas of concern
                                              highlighted in this report, and that one of the goals of Texas’
                                              Program Improvement Plan focuses on the health and mental
                                              health care of children in the child welfare system. Upon
                                              completion of this plan in March 2005, ACF will conduct another
                                              Child and Family Services Review. The full text of ACF’s
                                              comments to the draft report is located in Appendix F.

                                              CMS concurs with our recommendation and indicates that it is
                                              available to provide technical assistance to the State to promote
                                              provider education regarding the periodicity schedule
                                              requirements, and appropriate documentation of vision and hearing
                                              screenings. The full text of CMS’s comments to the draft report is
                                              located in Appendix G.




        O E I - 07 - 00 - 0 0 6 4 1           C H I L D R E N’ S U S E   OF   H EALTH C ARE S E R V I C E S WH I L E   IN   F O S T E R CA R E : T E X A S   v
T A B L E                            O F                  C O N T E N T S 




                     A B S T R A C T . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


                     E X E C U T I V E S U M M A R Y . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii


                     I N T R O D U C T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


                     F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


                          All sampled children had Medicaid coverage and claims for services ............. 8


                          Ninety-four percent of sampled children received their most recent EPSDT 

                          medical examinations, and 92 percent received their most recent EPSDT 

                          dental examinations, in accordance with State guidelines............................. 9


                          Seventy-five percent of sampled children received initial medical 

                          examinations, and 66 percent of sampled children received initial dental 

                          examinations, within required timeframes...................................................10


                          Compliance with State guidelines for vision and hearing screenings was 

                          undocumented .............................................................................................11


                          Seventy-six percent of sampled children received 

                          Medicaid mental health services..................................................................12


                          Forty-six percent of foster care providers reported never receiving 

                          a medical history for the sampled child in their care ....................................13


                     R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


                     A P P E N D I C E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


                                  Appendix A: Texas Foster Care and Medicaid Programs ....................17


                                  Appendix B: Sampled Children ..........................................................18


                                  Appendix C: Medicaid Claims for Sampled Children ..........................20


                                  Appendix D: Level of Care Categories for Texas .................................22


                                  Appendix E: Analysis of Medical History and Level of Care ...............25


                                  Appendix F: Agency Comments - ACF ................................................26


                                  Appendix G: Agency Comments - CMS...............................................28


                     A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29





O E I - 07 - 00 - 0 0 6 4 1          C H I L D R E N’ S U S E   OF   H EALTH C ARE S E R V I C E S WH I L E   IN   F O S T E R CA R E : T E X A S
I N T R O D U C T I O N 





                              OBJECTIVE
                              To determine whether sampled children in the Texas foster care
                              program receive health care services.


                              BACKGROUND
                              Currently, there are an estimated 534,000 children in foster care
                              nationwide, 1 many of whom are reportedly in poor health. To
                              determine if children in foster care are receiving mandated health
                              care services, we selected eight States for review. 2 The States were
                              chosen to represent a diverse cross-section of foster care
                              nationwide. Texas was selected because of its large size, geographic
                              location, and fee-for-service provision of Medicaid services. Texas
                              had 21,353 children in foster care at the end of the Federal fiscal
                              year 2002, based on the most recent Federal data available. 3 The
                              Administration for Children and Families (ACF) has regulatory
                              oversight of Title IV-E foster care programs, including approval of
                              State plans to ensure State foster care programs are operating
                              within Federal guidelines. The Texas Department of Protective
                              and Regulatory Services manages the State’s Title IV-E foster care
                              program.

                              Compared with children from the same socioeconomic backgrounds,
                              children in foster care suffer much higher rates of serious physical
                              and psychological problems.4 Vision, hearing, and dental problems
                              are prevalent in the foster care population and physical health


                              1Retrieved   December 10, 2003 from
                                http://www.acf.hhs.gov/programs/cb/dis/afcars/publications/afcars.htm. “Currently”
                                refers to children in foster care on September 30, 2002, the most recent available
                                nationwide estimate.

                              2Other  States selected for review are Georgia, Illinois, Kansas, New Jersey, New
                                York, North Dakota, and Oregon.

                              3Retrieved   December 10, 2003 from
                                http://acf.hhs.gov/programs/cb/ddis/tables/entryexit2002.htm. Both Title IV-E
                                eligible and non-Title-IV-E eligible children are included in the total
                                “21,353 children in foster care.”

                              4Health  Care Issues for Children in Foster Care, March 25, 2002. Retrieved October
                                17, 2002, from http://www.casey.org/cnc/documents/health_care_issues.pdf.



O E I - 07 - 00 - 0 0 6 4 1   C H I L D R E N’ S U S E   OF   H EALTH C ARE S E R V I C E S WH I L E   IN   F O S T E R CA R E : T E X A S   1
I   N   T    R       O      D         U   C   T    I    O       N


                                              problems (e.g., delayed growth and development, malnutrition, and
                                              asthma) affect 30 to 40 percent of children in the child welfare
                                              system. 5

                                              Children in foster care have greater health care needs, 6 yet many
                                              foster care providers report having difficulty finding health care
                                              professionals who are willing to care for these children. The health
                                              care available for children in foster care is often characterized by
                                              lack of access, lack of information sharing among health providers,
                                              child welfare workers, and foster care providers, and long delays in
                                              obtaining services. 7 Furthermore, studies have shown that low
                                              percentages of children in foster care are actually receiving
                                              services. Therefore, concern exists that children with the greatest
                                              health care needs may not be receiving needed services.

                                              The Early and Periodic Screening, Diagnosis, and Treatment
                                              (EPSDT) program is designed to screen for, diagnose, and treat
                                              medical conditions in Medicaid-eligible individuals under age 21
                                              that might otherwise go undetected or untreated. However, a
                                              General Accounting Office (GAO) report released in July 2001
                                              states that available data from short-range studies show that the
                                              percentage of children in the general population receiving EPSDT
                                              services is very low. 8

                                              Preventive dental care is also included as part of EPSDT.
                                              Adherence to American Dental Association recommendations for
                                              preventive dental care leads to better oral health, and practicing
                                              preventive behaviors over the long term produces greater benefits
                                              than doing so over the short term. 9



                                              5Factsheet:   The Health of Children in Out-of-Home Care. Child Welfare League of
                                                  America. Retrieved October 21, 2002 from
                                                  http://www.cwla.org/programs/health/healthcarecwfact.htm.

                                              6Chernoff,    R. et. al., Assessing the Health Status of Children Entering Foster Care,
                                                  Pediatrics, 93:2, 1994.

                                              7Health   Care of Young Children in Foster Care. Pediatrics, 109:3, 2002. Retrieved
                                                  October 17, 2002 from http://www.aap.org/policy/re0054.html.

                                              8Medicaid:    Stronger Efforts Needed to Ensure Children’s Access to Health Screening
                                                   Services. General Accounting Office, GAO-01-749, July 2001.

                                              9Journal       of Dental Research, March 2003; 82 (3): 223-7.



        O E I - 07 - 00 - 0 0 6 4 1           C H I L D R E N’ S U S E   OF   H EALTH C ARE S E R V I C E S WH I L E   IN   F O S T E R CA R E : T E X A S   2
                              Medicaid for Children in Foster Care
                              All children in the Texas foster care program are eligible for
                              Medicaid. Sections 472(h) and 1902(a)(10)(A)(i)(I) of the Social
                              Security Act (the Act) require States to provide Medicaid (Title XIX
                              of the Act), or equivalent health insurance coverage, to children
                              eligible to receive Title IV-E foster care program maintenance
                              funds. Within broad national guidelines, each State establishes its
                              own Medicaid eligibility standards; determines the type, amount,
                              duration, and scope of Medicaid services; sets the rate of payment
                              for services to Medicaid patients; and administers its own Medicaid
                              program.1 0 Texas provides Medicaid coverage to all children in
                              foster care, regardless of IV-E eligibility status. In 2000, Medicaid
                              payments for children in foster care nationwide totaled over
                              $3.3 billion.1 1 Texas Medicaid expenditures to provide health care
                              services to children in the Texas foster care program totaled
                              approximately $156 million in 2000. 1 2 The Centers for
                              Medicare & Medicaid Services (CMS) is responsible for Federal
                              oversight of individual State Medicaid programs.

                              States establish EPSDT guidelines in accordance with Federal
                              requirements to provide coverage for preventive child health
                              services to all Medicaid eligible individuals under the age of 21. 1 3
                              State EPSDT programs must provide medical, hearing, vision, and
                              dental screenings, and other necessary health care and treatment
                              at intervals established by the State that meet reasonable
                              standards of practice published by recognized health care
                              organizations. Texas established the Texas Health Steps program
                              to meet Federal EPSDT requirements. The current EPSDT
                              frequency schedule for the Texas Health Steps program requires
                              that medical screenings occur at: birth; 2 weeks; 2, 4, 6, 9, 12, 15

                              10Retrieved  November 1, 2002 from http://cms.hhs.gov/medicaid/mover.htm and
                                 http://cms.hhs.gov/medicaid/eligibility/criteria.asp.

                              11Medicaid Statistical Information System (MSIS) Report Fiscal 2000. Retrieved
                                 December 10, 2003 from http://www.cms.gov/medicaid/msis/00total.pdf. Fiscal
                                 2001 numbers for all States were not available.

                              12Medicaid  Statistical Information System (MSIS) Report Fiscal 2000: Texas.
                                 Retrieved December 10, 2003 from http://www.cms.gov/medicaid/msis/00tx.pdf.
                                 Fiscal 2001 expenditures for Texas totaled approximately $185 million. Retrieved
                                 December 10, 2003 from http://www.cms.gov/medicaid/msis/01tx.pdf.

                              13Section       1905(r) of the Social Security Act.



O E I - 07 - 00 - 0 0 6 4 1   C H I L D R E N’ S U S E   OF   H EALTH C ARE S E R V I C E S WH I L E   IN   F O S T E R CA R E : T E X A S   3
I   N   T    R       O      D         U   C   T    I    O       N


                                              and 18 months of age; 2, 3, 4, 5, 6, 8, and 10 years of age; and
                                              annually between the ages of 10 and 20. Vision and hearing
                                              screenings are required at each medical checkup, beginning at
                                              birth. Dental examinations are required every 6 months beginning
                                              at 1 year of age. Dental examinations are conducted separately
                                              from medical checkups.

                                              Section 471(a)(22) of the Act requires States to develop a State plan
                                              that includes standards to ensure that children in foster care
                                              placements are provided quality services that protect their safety
                                              and health. Sections 422(b)(10)(B)(ii) and 475(1)(B) of the Act
                                              require that a case plan be developed for each child that includes a
                                              plan for ensuring that the child’s needs are addressed while s/he is
                                              in foster care. The case plan must be developed no more than
                                              60 days after the child’s removal from home. 14 Sections
                                              422(b)(10)(B)(ii) and 475(5)(D) of the Act require procedures to
                                              ensure that a child’s health records are reviewed, updated, and
                                              supplied to the foster care provider at the time of placement.
                                              According to Section 475(1)(C) of the Act, health records should
                                              include, to the extent available and accessible, the names and
                                              addresses of the child's health providers, a record of the child's
                                              immunizations, the child's known medical problems, the child's
                                              medications, and any other relevant health information concerning
                                              the child determined to be appropriate by the State agency. In
                                              accordance with these Federal laws, the Texas foster care program
                                              requires: that each child receive a medical examination within
                                              30 days after the date the child entered State custody, unless the
                                              child received a medical examination within 30 days before
                                              entering custody, and a dental examination within 90 days after
                                              placement;15 that a case plan (Initial Child’s Service Plan), which
                                              includes an assessment of a child’s mental health needs, be created
                                              within 45 days of a child’s removal from home; 16 and that the
                                              child’s medical and dental history be supplied to the foster care
                                              provider before, or at the time of, the child’s placement. 17



                                              1445     CFR § 1356.21 (g)(2).

                                              15Texas   Department of Protective and Regulatory Services Child Protective Services
                                                  (CPS) Handbook 6520.
                                              16Texas       Department of Protective and Regulatory Services CPS Handbook 6411.

                                              17Texas       Department of Protective and Regulatory Services CPS Handbook 6123.3.


        O E I - 07 - 00 - 0 0 6 4 1           C H I L D R E N’ S U S E   OF   H EALTH C ARE S E R V I C E S WH I L E   IN   F O S T E R CA R E : T E X A S   4
I   N   T    R       O      D         U   C   T    I    O       N


                                              Each State establishes eligibility standards, determines services,
                                              sets payment rates, and administers its own foster care and
                                              Medicaid programs in accordance with general Federal guidelines.
                                              The resulting diversity produces variations in what types of
                                              services children receive while in foster care, and when they receive
                                              services. As such, the experiences reported in this State-specific
                                              report will be unique to the sampled children’s experiences in
                                              Texas.


                                              METHODOLOGY
                                              This inspection focused on the receipt of Medicaid health care,
                                              dental, and mental health care services that meet EPSDT
                                              guidelines; requirements for initial health screenings and mental
                                              health assessments upon entry into foster care; and the provision of
                                              medical information to foster care providers. This study did not
                                              address follow-up care or the appropriateness of ongoing health
                                              care in meeting the needs of children in foster care.

                                              The inspection is based on information gathered from multiple
                                              sources: reviews of Federal and State policies; child-specific
                                              Medicaid claims data and case file documentation for 50 randomly
                                              sampled children; interviews with caseworkers and foster care
                                              providers for each of 50 children in our sample; and interviews with
                                              Texas State agency officials.

                                              Reasons for State Selection
                                              Texas was selected due to its large size, geographic location, and
                                              fee-for -service payment of Medicaid health care services (T exas
                                              does not utilize managed care for children in foster care). The
                                              Texas Department of Protective and Regulatory Services is
                                              responsible for the welfare of children in State custody. An
                                              overview of the administration of child welfare services in Texas is
                                              included in Appendix A.

                                              Sample
                                              Children who met the following criteria were included in the study
                                              sample: (1) were in foster care on September 30, 2002; (2) resided
                                              in Texas; and (3) had been in continuous out-of-home foster care
                                              placements for at least 6 months. The Texas Department of
                                              Protective and Regulatory Services provided us with a list of the
                                              9,030 children who met these criteria. We selected a simple
                                              random sample of 50 children in Texas from the list of children who



        O E I - 07 - 00 - 0 0 6 4 1           C H I L D R E N’ S U S E   OF   H EALTH C ARE S E R V I C E S WH I L E   IN   F O S T E R CA R E : T E X A S   5
I   N   T    O       D      U         C   T   I      O      N


                                                  met the specified criteria. Appendices B and C provide information
                                                  on the children included in our sample.

                                                  Review of State Policy, Medicaid Data, and Case File Documentation
                                                  Policy Review - We reviewed Federal and Texas State foster care
                                                  and Medicaid policies. All Texas children in foster care are eligible
                                                  for Medicaid services, regardless of their Title IV-E foster care or
                                                  other eligibility status (e.g., Temporary Assistance for Needy
                                                  Families). Federal law relating to EPSDT requires that States
                                                  meet reasonable standards of medical and dental practice as
                                                  determined by the State after consultation with recognized medical
                                                  and dental organizations. The Texas Health Steps program
                                                  satisfies the Federal EPSDT requirement. Therefore, we used
                                                  Texas Health Steps policy guidelines to determine whether children
                                                  had received their most recent EPSDT examination within required
                                                  frequency guidelines.

                                                  Medicaid Claims Data Review – The Texas Health and Human
                                                  Services Commission provided us with 3 years of Medicaid claims
                                                  histories for each of the children in our sample. The data included
                                                  claims for physician, dental, pharmaceutical, and mental health
                                                  services paid between September 1, 1999 and August 31, 2002. We
                                                  paid particular attention to the types of health and mental health
                                                  services provided, dates of service, where the services were
                                                  provided, and diagnoses, where available. We included only those
                                                  Medicaid claims after the child’s most recent entry into foster care
                                                  and any claims prior to entry that were pertinent in establishing
                                                  frequency of services (i.e., met Texas Health Steps guidelines).

                                                  Case File Documentation Review - We requested and reviewed case
                                                  file documentation from the Texas Department of Protective and
                                                  Regulatory Services local offices for all the children in our sample.
                                                  Information requested included documentation of medical and
                                                  mental health services provided, the child’s initial and most recent
                                                  case plan, duration of the child’s stay in foster care, and
                                                  information regarding the child’s general well-being.

                                                  Interviews

                                                  Foster Care Provider Interviews - We use the term “foster care 

                                                  provider” to refer to a foster parent or a staff member of a 

                                                  residential facility who is responsible for the child. One hundred 

                                                  percent of the foster care providers responsible for the children in 

                                                  our sample responded to our request for an interview. We 

                                                  conducted structured interviews with each child’s foster care 



        O E I - 07 - 00 - 0 0 6 4 1               C H I L D R E N’ S U S E   OF   H EALTH C ARE S E R V I C E S WH I L E   IN   F O S T E R CA R E : T E X A S   6
I   N   T    R       O      D         U   C   T    I    O       N


                                              provider (10 in-person and 40 by telephone) between 

                                              December 30, 2002 and February 6, 2003. The interviews with 

                                              foster care providers focused on Medicaid programs and services 

                                              available, training related to the health and well-being of children, 

                                              and their experiences procuring health care services for the 

                                              children included in our sample.


                                              Caseworker Interviews - We conducted structured telephone 

                                              interviews with each child’s current caseworker between 

                                              December 16, 2002 and January 7, 2003. Each of these interviews 

                                              focused on the caseworker’s understanding of the Medicaid program 

                                              and services available, training related to the health and well-being 

                                              of the children, his/her experience accessing services for the 

                                              sampled child, and any barriers to health care faced by the child. 

                                              Each caseworker spoke specifically about the sampled child’s case, 

                                              and generally about his or her own experiences working in foster 

                                              care. We analyzed the caseworkers’ responses and compared them 

                                              to those of the foster care providers, noting any consensus or 

                                              disagreement within and between the two groups.


                                              State Agency Officials - To enhance our understanding of the State’s 

                                              foster care and Medicaid programs, we consulted, both in person 

                                              and by telephone, with Texas Department of Protective and 

                                              Regulatory Services, Texas Health and Human Services 

                                              Commission, and Texas Department of Health officials who are 

                                              responsible for the administration of both the foster care and 

                                              Medicaid programs in Texas. Our discussions covered a wide 

                                              spectrum of information, including the overall provision of Medicaid 

                                              services for children in foster care, the State’s EPSDT program 

                                              (Texas Health Steps), the structure of the State’s foster care service 

                                              organization, and Medicaid claims for children in foster care.


                                              This inspection was conducted in accordance with the Quality 

                                              Standards for Inspections issued by the President’s Council on 

                                              Integrity and Efficiency.





        O E I - 07 - 00 - 0 0 6 4 1           C H I L D R E N’ S U S E   OF   H EALTH C ARE S E R V I C E S WH I L E   IN   F O S T E R CA R E : T E X A S   7
      F I N D I N G S 




All sampled children had Medicaid coverage                                                       In Texas, all children in foster care

                                    and claims for services                                      are eligible for Medicaid, which
                                                                                                 includes EPSDT services. All
                                      children in our sample had Medicaid coverage and at least one
                                      Medicaid claim for health care services between
                                      September 1, 1999 and August 31, 2002. Table 1 (below) details the
                                      various types of Medicaid-covered services, and the numbers of
                                      claims by type of service for the 50 sampled children.



                                                       Table 1: Number and Type of Medicaid Claims
                                                                 for 50 Children in Sample*
                                                                         Number of children     Total number of
                                                    Claim type
                                                                        with at least one claim     claims**
                                               Physican's office                                                49                                    782

                                                         Dental                                                 47                                    761

                                                  Mental health                                                 38                                   2,077

                                              Prescription drug                                                 35                                    283

                                          Optometry/Audiology                                                   34                                    178

                                                 Laboratory test                                                33                                    813

                                               Hospital/ASC***                                                  31                                    852

                                                     Diagnostic                                                 24                                    235

                                                       Supplies                                                 23                                    780

                                       Medication management                                                    22                                    288
                                         Physical/Occupational
                                                                                                                12                                    833
                                                therapy
                                                 Transportation                                                 10                                    128

                                            Case management                                                     8                                      33

                                                  Home nursing                                                  6                                    2,423

                                                          Other                                                 3                                      4

                                                          Total                                                                                      10,470
                                      *Claims for 09/01/99 to 08/31/02, or entry into care to 08/31/02.
                                      **A detailed list of services for each child is located in Appendix C.
                                      ***Includes emergency room visits.
                                      Source: OIG analysis of Texas Medicaid claims data


      O E I - 07 - 00 - 0 0 6 4 1     C H I L D R E N’ S U S E   OF   H EALTH C ARE S E R V I C E S WH I L E   IN   F O S T E R CA R E : T E X A S            8
  F    I      N       D      I     N     G   S


      Ninety-four percent of sampled children                                                               Federal law requires that State
 received their most recent EPSDT medical                                                                   EPSDT programs provide medical,
                                                                                                            hearing, vision, and dental
examinations, and 92 percent received their
                                                                                                            screenings, and other necessary
most recent EPSDT dental examinations, in
                                                                                                            health care and treatment at
                      accordance with State guidelines
                                                                                                            intervals established by the State
                                                                                                            that meet reasonable standards of
                                                 practice published by recognized health care organizations. The
                                                 Texas Health Steps program meets Federal EPSDT requirements.
                                                 For their most recent EPSDT services, 94 percent (47/50) of the
                                                 children sampled for this inspection received their most recent
                                                 EPSDT medical examinations, and 92 percent (45/49) received their
                                                 most recent EPSDT dental examinations in accordance with Texas
                                                 Health Steps guidelines. 1 8

                                                 We analyzed Medicaid claims and interview data in an attempt to
                                                 identify factors that explain the high (over 90 percent) percentages
                                                 of children that were receiving EPSDT medical and dental
                                                 examinations at the time of our review. Although sev eral factors,
                                                 such as geographical region, caseworker involvement in the child’s
                                                 health care, caseworker caseload size, and child’s date of entry into
                                                 foster care were analyzed, we detected no differences between
                                                 children who received services within required timeframes and
                                                 those who did not.1 9 Of the 47 children who were receiving EPSDT
                                                 medical examinations according to the Texas Health Steps
                                                 guidelines, 77 percent (36/47) of their foster care providers knew
                                                 the frequency schedule established by Texas Health Steps. For the
                                                 45 children who were receiving EPSDT dental examinations
                                                 according to Texas Health Steps guidelines, 87 percent (39/45) of
                                                 the providers knew the frequency schedule. While the number of
                                                 children who were not receiving medical and dental examinations
                                                 according to Texas Health Steps guidelines was relatively small


                                                 18Percentage  of children receiving dental examinations is based on 49 of the
                                                    50 sampled children. One child was medically exempt from receiving dental
                                                    services and was excluded.

                                                 19Due   to the small size of the groups who did not receive medical and dental
                                                    examinations according to State guidelines (3 and 4 children, respectively),
                                                    detecting any statistically significant differences with the larger groups who
                                                    received medical and dental examinations (47 and 45 children, respectively) is
                                                    difficult.



           O E I - 07 - 00 - 0 0 6 4 1           C H I L D R E N’ S U S E   OF   H EALTH C ARE S E R V I C E S WH I L E   IN   F O S T E R CA R E : T E X A S   9
F   I    N     D       I    N       G   S


                                            (three and four, respectively), we believe it is significant to note
                                            that only one of the three foster care providers knew the EPSDT
                                            frequency schedule for medical examinations, and two of the four
                                            foster care providers knew the EPSDT frequency schedule for
                                            dental examinations.



        Seventy-five percent of sampled children                                                            The Texas foster care program
        received initial medical examinations, and                                                          requires that each child in foster
          66 percent of sampled children received                                                           care receive a medical examination
                                                                                                            within 30 days after the date the
                           initial dental examinations, within
                                                                                                            child entered State custody, if the
                                                 required timeframes
                                                                                                            child had not received an
                                            examination within 30 days prior to entering custody, and a dental
                                            examination within 90 days after placement. Seventy-five percent
                                            (27/36) of the children in our sample received initial medical
                                            examinations within 30 days prior to or after entering State
                                            custody. 2 0 Sixty-six percent (23/35) of the children in our sample
                                            received initial dental examinations within 90 days after
                                            placement.2 1 These percentages are substantially lower than the
                                            number of children who received current EPSDT medical and
                                            dental services that met State frequency guidelines.

                                            We analyzed Medicaid claims and interview data in an attempt to
                                            identify factors that would explain the lower percentages of
                                            children receiving initial examinations within required timeframes,
                                            compared to those receiving current EPSDT medical and dental
                                            services that met frequency guidelines. Although several factors,
                                            such as geographical region, caseworker involvement in the child’s
                                            health care, caseworker caseload size, child’s age, child’s level of
                                            care, 2 2 and child’s date of entry into foster care were analyzed, we


                                            20The  percentage of children receiving initial medical examinations is based on a
                                               subset of 36 sampled children. Fourteen sampled children were excluded because
                                               they entered foster care outside of the timeframe included in our claims data.

                                            21The  percentage of children receiving initial dental examinations is based on a
                                               subset of 35 sampled children. Fourteen sampled children were excluded because
                                               they entered foster care outside of the timeframe included in our claims data, and
                                               one child was medically exempt from receiving dental services.

                                            22“Level  of care” is a category of care assigned by the State based on the child’s
                                               clinical, psychosocial, and related needs. See Appendix D for an explanation of
                                               level of care categories in Texas.



          O E I - 07 - 00 - 0 0 6 4 1       C H I L D R E N’ S U S E   OF   H EALTH C ARE S E R V I C E S WH I L E   IN   F O S T E R CA R E : T E X A S   10
F   I   N    D       I    N       G   S


                                          found no evidence of differences between children who received
                                          initial medical and dental examinations within required
                                          timeframes and those who did not.2 3 However, 20 percent (10/50) of
                                          foster care providers reported that dentists willing to accept new
                                          Medicaid patients were difficult to locate. Data suggest that it may
                                          be difficult for foster care providers to quickly locate dental
                                          providers for initial examinations, but dentists will continue to see
                                          the child once a relationship has been established with the foster
                                          care provider. If children in foster care are not receiving required
                                          initial medical services, it causes the State to be out of compliance
                                          with guidelines established in its State plan, and may delay the
                                          discovery of serious health care problems.



            Compliance with State guidelines for vision                                                                 The Texas Health Steps
            and hearing screenings was undocumented	                                                                    program requires that a
                                                                                                                        hearing and vision screening
                                          be performed during each EPSDT medical examination.

                                          Our review of case file documentation provided no evidence of a
                                          vision screening for 58 percent (29/50) of the sampled children, and
                                          no evidence of a hearing screening for 66 percent (33/50) of the
                                          sampled children at the time of their most recent EPSDT medical
                                          examination. In addition to a lack of case file documentation, for
                                          17 of the 29 children in our sample with no evidence of a vision
                                          screening in their case files, and for 23 of the 33 children in our
                                          sample with no evidence of a hearing screening, there was no
                                          indication from the foster care provider that a screening was
                                          performed.

                                          Foster care providers indicated that children might receive vision
                                          and hearing screenings from various sources: at school, through
                                          local Head Start programs, or through Early Childhood
                                          Intervention (the State’s agency that serves families who have
                                          babies or toddlers with disabilities or developmental delays).
                                          Foster care providers for 12 of the 29 children lacking evidence of a
                                          vision screening reported that the child received a separate vision


                                          23Due  to the small size of the groups who did not receive initial medical and dental
                                             examinations according to State guidelines (nine and twelve children,
                                             respectively), detecting any statistically significant differences with the larger
                                             groups who received initial medical and dental examinations (27 and 23 children,
                                             respectively) is difficult.



        O E I - 07 - 00 - 0 0 6 4 1       C H I L D R E N’ S U S E   OF   H EALTH C ARE S E R V I C E S WH I L E   IN   F O S T E R CA R E : T E X A S   11
F   I    N     D       I    N       G   S


                                            screening from the most recent EPSDT medical examination.
                                            Foster care providers for 10 of the 33 children lacking evidence of a
                                            hearing screening reported the children received a separate hearing
                                            screening. Nevertheless, the State’s rules require that vision and
                                            hearing screenings be conducted as part of every EPSDT medical
                                            examination.

                                            Prior to Federal fiscal year (FFY) 1999, CMS required States to
                                            report the number of children receiving vision and hearing
                                            screenings through the State’s EPSDT program as part of the
                                            State’s annual report to CMS on EPSDT participation
                                            (CMS Form 416). However, effective FFY 1999, CMS eliminated
                                            the requirement to report vision and hearing screenings on
                                            CMS Form 416 in an attempt to clarify and simplify reporting
                                            requirements wherever possible. Section 1902(a)(43) of the Social
                                            Security Act, which requires the annual reporting of EPSDT
                                            participation for each State, does not specifically require the
                                            reporting of the number of children receiving vision and hearing
                                            screenings. Likewise, medical providers in Texas are not required
                                            to “itemize” the individual components of an EPSDT medical
                                            examination, such as developmental assessment, unclothed
                                            physical inspection, vision screening, hearing screening, etc., when
                                            they bill for reimbursement.

                                            The State’s Medicaid reimbursement for Texas Health Steps
                                            medical screenings is provided with the understanding that the
                                            provider is performing all components of an EPSDT examination,
                                            which, according to Texas Health Steps guidelines, includes a
                                            vision and hearing screening. The lack of documentation of vision
                                            and hearing screenings makes it impossible to determine if medical
                                            providers are performing all of the services for which they are paid,
                                            and if children are receiving all EPSDT services according to Texas
                                            Health Steps guidelines.



        Seventy-six percent of sampled children                                                           Federal law requires that a case
        received Medicaid mental health services	                                                         plan be developed for each child in
                                                                                                          Title IV-E foster care that includes
                                            a plan for ensuring that the child’s needs are addressed while s/he
                                            is in foster care. The Texas Department of Protective and
                                            Regulatory Services requires that a case plan be developed for each
                                            child who enters foster care that includes an assessment of the
                                            child’s mental health needs. Case plans that included an


          O E I - 07 - 00 - 0 0 6 4 1       C H I L D R E N’ S U S E   OF   H EALTH C ARE S E R V I C E S WH I L E   IN   F O S T E R CA R E : T E X A S   12
 F   I   N    D       I    N       G   S


                                           assessment of the child’s mental health needs had been completed
                                           for 86 percent (43/50) of the children in our sample, and 76 percent
                                           (38/50) of the children in our sample had Medicaid claims for
                                           mental health care services.

                                           We reviewed case file documentation for the 12 children who did
                                           not have Medicaid mental health claims to determine if mental
                                           health care needs for these children were identified. The case plans
                                           for these 12 children indicated that their mental health needs were
                                           assessed. Eight of the children had no needs identified, two
                                           children had mental health needs identified and had scheduled
                                           appointments outside the timeframe of our claims data, and two
                                           children had mental health needs identified, and no services were
                                           received or planned.

                                           The case plan is the only Federal or State requirement for assessing
                                           mental health care needs. The Texas Department of Protective and
                                           Regulatory Services requires that the child’s case plan (Initial
                                           Child’s Service Plan) be completed within 45 days of the child’s
                                           removal from home. For the 50 children in our sample, 44 percent
                                           (22/50) had initial case plans that were completed within the
                                           required timeframe established by the State. It is important that
                                           initial case plans be completed within required timeframes so that
                                           needed mental health services can be provided.



    Forty-six percent of foster care providers                                                           Federal law requires that a child’s
reported never receiving a medical history for                                                           health record is reviewed, updated,
                                                                                                         and supplied to the foster care
                       the sampled children in their care
                                                                                                         provider at the time of placement.
                                           Foster care providers for 46 percent (23/50) of the children in our
                                           sample reported never receiving a medical history for the children
                                           in their care. However, caseworkers for 19 of these 23 children
                                           reported receiving or compiling a medical history for the children.

                                           Foster care providers for children assigned a lower level of care
                                           (1 through 3), as defined in Appendix D, were less likely to report
                                           receiving a medical history for the children in their care than those
                                           providers caring for a child assigned a higher level of care
                                           (4 through 6). 2 4 Of the 23 foster care providers that reported they
                                           did not receive a medical history for the sampled children, 74


                                           24The difference between these two groups was statistically significant. See
                                              Appendix E.


         O E I - 07 - 00 - 0 0 6 4 1       C H I L D R E N’ S U S E   OF   H EALTH C ARE S E R V I C E S WH I L E   IN   F O S T E R CA R E : T E X A S   13
F   I   N    D       I    N       G   S


                                          percent (17/23) were caring for children assigned a level of care 1, 2
                                          or 3, and 26 percent (6/23) of these foster care providers were caring
                                          for children assigned a level of 4, 5, or 6. Overall, 59 percent
                                          (17/29) of foster care providers for children in a level of care 1
                                          through 3 did not receive a medical history, and 29 percent (6/21) of
                                          foster care providers for children in a level of care 4, 5 or 6 did not
                                          receive a medical history. Foster care providers and caseworkers
                                          may not realize the importance of a medical history for children
                                          with few or no medical conditions. The requirement that foster care
                                          providers are supplied a medical history for the child in their care
                                          helps to ensure that all children receive the most effective care
                                          possible, regardless of a child’s level of care.

                                          Other conditions explaining why foster care providers may not have
                                          received medical histories include the following:

                                          o	      Foster parents stated they did not know they should have
                                                  received a medical history for the children in their care.

                                          o	      Foster parents were unable to obtain medical information
                                                  because the physician for the children in their care was
                                                  concerned about patient confidentiality.

                                          o	      Private foster care agencies allow foster parents to view a
                                                  child’s medical record at the agency office, but will not release
                                                  the information to the foster parent.

                                          Foster care providers for children in our sample who reported that
                                          they did not receive a medical history revealed that not having this
                                          information made it difficult for them to effectively care for the
                                          children placed in their homes. One foster parent who reported not
                                          receiving a medical history indicated that it resulted in the child in
                                          her care having to receive multiple immunizations at one time so
                                          that he could be enrolled in school. Other foster parents reported
                                          that children with histories of serious health problems, such as
                                          collapsed lungs, severe malnutrition, and chronic ear infections,
                                          had been placed in their care without the foster care providers
                                          receiving medical histories.




        O E I - 07 - 00 - 0 0 6 4 1       C H I L D R E N’ S U S E   OF   H EALTH C ARE S E R V I C E S WH I L E   IN   F O S T E R CA R E : T E X A S   14
R E C O M M E N D A T I O N S 





                              RECOMMENDATIONS
                              It is important to conduct initial medical, initial dental, and EPSDT
                              examinations for children in foster care, in accordance with Federal
                              guidelines, in order to detect the health care needs of this
                              vulnerable population. Timely completion of initial case plans and
                              the provision of available medical information to these childrens’
                              foster care providers are also important aspects of their care.
                              Therefor e, we recommend that:

                              ACF work with the Texas Department of Protective and Regulatory
                              Services to increase the number of

                              o	      Initial medical and dental screenings that are received within
                                      required timeframes

                              o	      Initial case plans that are completed within required
                                      timeframes

                              o	      Foster care providers who are supplied available medical
                                      information for the children in their care

                              In Texas, State regulations require that all EPSDT examinations
                              include vision and hearing screenings. Therefore, we recommend
                              that:

                              CMS work with the Texas Department of Health to

                              o	      Evaluate the need for documentation to ensure compliance with
                                      routine EPSDT vision and hearing screening guidelines




O E I - 07 - 00 - 0 0 6 4 1   C H I L D R E N’ S U S E   OF   H EALTH C ARE S E R V I C E S WH I L E   IN   F O S T E R CA R E : T E X A S   15
R   E   C      O       M       M      E   N   D       A      T      I     O      N     S



                                              AGENCY COMMENTS
                                              ACF indicated that it is working with the Texas Department of
                                              Protective and Regulatory Services to assist the State in
                                              accomplishing goals established in a Program Improvement Plan
                                              developed as a result of a Child and Family Services Review. Child
                                              and Family Services Reviews measure individual State’s
                                              performance related to the health and well-being of children in the
                                              child welfare system. ACF stated that indicators in the Child and
                                              Family Services Review specifically track the areas of concern
                                              highlighted in this report, and that one of the goals of Texas’
                                              Program Improvement Plan focuses on the health and mental
                                              health care of children in the child welfare system. Upon
                                              completion of this plan in March 2005, ACF will conduct another
                                              Child and Family Services Review. The full text of ACF’s
                                              comments to the draft report is located in Appendix F.

                                              CMS concurs with our recommendation and indicates that it is
                                              available to provide technical assistance to the State to promote
                                              provider education regarding the periodicity schedule
                                              requirements, and appropriate documentation of vision and hearing
                                              screenings. The full text of CMS’s comments to the draft report is
                                              located in Appendix G.




        O E I - 07 - 00 - 0 0 6 4 1           C H I L D R E N’ S U S E   OF   H EALTH C ARE S E R V I C E S WH I L E   IN   F O S T E R CA R E : T E X A S   16
        A P P E N D I X ~ A 




Texas Foster Care and Medicaid Programs

                                      The Health and Human Services Commission is the State agency
                                      with primary responsibility for ensuring the delivery of all State
                                      health and human services in Texas. The Health and Human
                                      Services Commission’s State Medicaid Office is responsible for
                                      administering medical assistance programs for all eligible
                                      recipients enrolled in the Texas Medicaid program. All children in
                                      foster care in Texas are eligible for fee-for-service Medicaid.

                                      The Health and Human Services Commission has oversight
                                      responsibility for the Texas Department of Protective and
                                      Regulatory Services. This agency is charged with protecting
                                      children, elder adults, and persons with disabilities from abuse,
                                      neglect, and/or exploitation, and with licensing child-care facilities
                                      and child-placing agencies. Within the Department of Protective
                                      and Regulatory Services, Child Protective Services manages foster
                                      care programs in the State. Texas’s foster care system utilizes both
                                      public (State-administered) and private (contracted) placement
                                      agencies, although final responsibility for each child in the
                                      managing conservatorship (custody) of the State lies with
                                      Department of Protective and Regulatory Services. Funding for
                                      foster care services in Texas can come from a variety of sources,
                                      including Federal, State, county, community, and private funds,
                                      and there is a great deal of variation in sources of funding and
                                      methods of service provision by region.

                                      The Health and Human Services Commission also has oversight
                                      responsibility for the Texas Department of Health. This agency
                                      administers the Texas Health Steps program. The Texas Health
                                      Steps program satisfies the Federal requirement that States
                                      establish EPSDT programs that provide coverage for preventive
                                      child health services to all Medicaid eligible individuals under the
                                      age of 21. All children in foster care in Texas are eligible for Texas
                                      Health Steps services.




        O E I - 07 - 00 - 0 0 6 4 1   C H I L D R E N’ S U S E   OF   H EALTH C ARE S E R V I C E S WH I L E   IN   F O S T E R CA R E : T E X A S   17
                   A P P E N D I X ~ B



    Sampled Children

                                                         The table below is merely descriptive in nature and describes the
                                                         demographic characteristics of each sampled child and his or her
                                                         foster care placement history at the end of February 2003.



                                                   Entries                  Placements Months since Caseworkers     Months
           Age         Placement                             Months since
ID Sex                                           into foster                 since last      last     since last caseworker
         (years)         Setting                             last entry (2)
                                                  care (1)                    entry (3) placement (2)   entry    with case (2)
1   F      17          Residential                    1            24            3             5          1           24
2   F      3          Therapeutic                    1                       12                         2                         12                           1        11
3   F      15         Therapeutic                    1                       61                         2                         54                           2        22
4   F      7               Family                    1                       11                         2                         7                            1        11
5   M      11         Therapeutic                    1                       53                         5                         4                            3        24
6   M      16          Residential                   1                       10                         5                         5                            2        4
7   F      11          Residential                   2                       65                         2                         60                           3        7
8   M      10              Family                    3                       39                         2                         39                           1        38
9   F      3               Family                    1                       16                         1                         16                           1        14
10 M       11         Therapeutic                    1                       38                         2                         30                           2        4
11 F       13              Family                    1                       54                         4                         24                           4        24
12 M       18              Family                    1                       29                         9                         2                            2        20
13 M       13              Family                    1                       40                         1                         24                           4        16
14 F       15              Family                    1                       11                         5                         9                            2        7
15 M       5          Therapeutic                    1                       13                         2                         11                           4        13
16 F       9               Family                    1                       27                         3                         21                           1        25
17 F       15         Therapeutic                    1                       50                         7                         1                            2        1
18 F       11              Family                    1                       33                         1                         33                           3        10
19 F       17          Residential                   1                       23                         12                        2                            4        2
20 F       16          Residential                   1                       36                         11                        3                            3        12
21 M       15         Therapeutic                    1                       66                         4                         18                           2        8
22 M       3        Rehabilitation                   1                       13                         1                         13                           1        12
23 F       3        Rehabilitation                   1                       13                         1                         13                           1        12
24 M       8           Residential                   1                       30                         4                         12                           2        30
25 F       14         Therapeutic                    1                       16                         2                         13                           2        7
26 F       4        Rehabilitation                   1                       17                         2                         16                          (+)       3
27 M       17          Residential                   1                       28                         7                         8                            1        28
28 F       8           Residential                   1                       14                         3                         10                           2        7
29 F       2               Family                    1                       27                         4                         13                           2        7
30 M       17          Residential                   2                       12                         2                         12                           1        12
31 M       4        Rehabilitation                   1                       39                         1                         39                           1        38
32 F       1               Family                    1                       19                         2                         15                          (+)       6
33 F       17          Residential                   1                       57                         14                        1                           (+)       15



                   O E I - 07 - 00 - 0 0 6 4 1           C H I L D R E N’ S U S E   OF   H EALTH C ARE S E R V I C E S WH I L E   IN   F O S T E R CA R E : T E X A S       18
A   P   P    E    N    D     I     X      ~      B




                                                       Entries                  Placements Months since Caseworkers     Months
               Age          Placement                            Months since
    ID Sex                                           into foster                 since last      last     since last caseworker
             (years)          Setting                            last entry (2)
                                                      care (1)                    entry (3) placement (2)   entry    with case (2)
    34 F         18         Residential                   1            58            2            15          2           44
    35 F         3         Therapeutic                   3                       16                         4                         9                            2        5
    36 F         3         Therapeutic                   1                       34                         1                         34                           2        6
    37 M         6               Family                  1                       19                         1                         19                           3        9
    38 F         17              Family                  1                       46                         2                         18                           2        42
    39 F         18         Residential                  1                       28                         2                         19                          (+)       3
    40 F         18        Therapeutic                   1                       75                         5                         4                            3        8
    41 F         15         Residential                  1                       47                         11                        5                            3        11
    42 M         11              Family                  2                       14                         2                         12                           3        2
    43 M         3               Family                  2                       30                         4                         1                            2        26
    44 F         14         Residential                  1                       12                         3                         10                           3        3
    45 F         3               Family                  1                       44                         2                         33                           1        43
    46 M         2         Rehabilitation                1                       21                         2                         20                           2        4
    47 F         6               Family                  1                       43                         1                         43                           2        36
    48 F         5         Therapeutic                   1                       51                         1                         51                           6        6
    49 M         11              Family                  1                       37                         5                         7                            1        37
    50 M         1         Therapeutic                   1                       20                         2                         17                           1        12



                                                             KEY
                                                             (1) “Entries into foster care” refers to the number of times a child
                                                             has entered State custody (i.e., number of foster care “episodes”).

                                                             (2) “Months since last entry” is the length of time from the date of
                                                             the child’s most recent entry into State custody until January 2003,
                                                             which coincides with the period of interviews with caseworkers and
                                                             foster care providers. “Months since last placement” is the length of
                                                             time from the date of the most recent placement to the date the
                                                             foster care provider was interviewed. “Months caseworker with
                                                             case” is the length of time from the date the caseworker initially
                                                             took over the child’s case until the date the caseworker was
                                                             interviewed.

                                                             (3) “Placements since last entry” refers to the number of placement
                                                             settings (e.g., Foster Home A, Foster Home B, Metro Residential
                                                             Facility) a child has experienced during each “episode” in foster
                                                             care.

                                                             (+) Number of caseworkers since last entry into foster care is
                                                             unknown.




                       O E I - 07 - 00 - 0 0 6 4 1           C H I L D R E N’ S U S E   OF   H EALTH C ARE S E R V I C E S WH I L E   IN   F O S T E R CA R E : T E X A S       19
                     A P P E N D I X ~ C

         Medicaid Claims for Sampled Children

                                                        The table below indicates each child’s receipt of required services
                                                        and total claims for September 1, 1999 to August 31, 2002, or entry
                                                        into care to August 31, 2002, whichever is shorter.



                   Number of Medicaid Claims                                                                                     Initial Exams                         Current EPSDT Exams

                                                                                             Medical history
     Physician’s     Dental               Prescription       Mental health
ID                                                                                           provided to care                Medical Dental                             Medical        Dental
       office       services              medications          services
                                                                                                 provider
1        9               19                        0                    80                                Y                           Y              Y                    N*             Y
2        3                2                        0                     0                                Y                           N              N                     Y             Y
3        5               10                        1                     1                               N                                                                N*            N*
4        2               21                        0                    13                               N                            Y              Y                     Y             Y
5        23              32                        4                    97                               N                                                                 Y             N
6        4                4                        0                    15                                Y                           N              N                     Y             Y
7        30              23                        0                    14                               N                                                                N*             Y
8        19              25                        7                    72                               N                            Y              Y                     Y             Y
9        13               2                        7                     4                                Y                           Y             N*                     Y             Y
10       1               18                        0                    29                                Y                           N              N                     N             Y
11       33              25                        0                    28                               N                                                                 Y             Y
12       9               20                        4                    67                                Y                           Y              Y                    N*             Y
13       8               21                        5                    28                               N                            Y              Y                    N*             Y
14       1               14                        1                    21                                Y                           Y              Y                     Y             Y
15       3               11                        9                    20                               N                            N              N                     Y             Y
16       16               9                        1                    53                               N                            N              Y                     Y             Y
17       43              49                        1                   106                                Y                                                                Y             Y
18       11              16                        0                    62                                Y                           N*             Y                     Y             Y
19       15              12                        7                    98                                Y                           Y              Y                     Y             N
20       17              39                        1                    88                                Y                           N*             N                     Y             Y
21       10              28                        0                    21                               N                                                                 Y             Y
22       2                2                        4                     0                               N                            N*             Y                    N*             Y
23       0                2                        4                     0                               N                            N*             Y                    N*             Y
24       9               10                        0                    62                               N                            Y              N                     Y            N*
25       3                8                        1                    60                               N                            N*             Y                    N*             Y
26       11               1                        6                     0                                Y                           Y             N*                     Y            N*
27       12              22                        0                    42                                Y                           Y              Y                     Y             Y
28       3               13                        0                    33                               N                            Y              Y                     Y             Y
29       7                2                        3                     2                                Y                           Y              N                     Y             Y
30       5               11                        0                    20                                Y                           Y              Y                    N*             Y
31       76               8                        35                    0                               N                            Y              N                     N             Y
32       15               0                        14                    0                                Y                           Y              N                     Y             N
33       16              17                        6                   101                               N                                                                 Y             Y


                     O E I - 07 - 00 - 0 0 6 4 1        C H I L D R E N’ S U S E   OF   H EALTH C ARE S E R V I C E S WH I L E   IN   F O S T E R CA R E : T E X A S              20
A    P    P   E    N   D   I    X       ~      C




                       Number of Medicaid Claims                                                                                       Initial Exams                         Current EPSDT Exams

                                                                                                   Medical history
         Physician’s        Dental              Prescription       Mental health
ID                                                                                                 provided to care                Medical Dental                             Medical        Dental
           office          services             medications          services
                                                                                                       provider
34            29               25                        21                  184                                Y                                                               N*             Y
35            8                16                        0                    26                                Y                           N              Y                     Y             Y
36            10                2                        8                     0                                Y                           Y              E                     Y             E
37            5                 7                        7                    24                               N                            Y              Y                     N             Y
38            30               17                        3                   191                                Y                                                                Y             Y
39            12               41                        4                    87                                Y                           N              Y                    N*            N*
40            33               32                        2                    60                               N                                                                 Y             Y
41            22               33                        8                   104                                Y                                                                Y             Y
42            1                 8                        3                    13                               N                            Y             N*                     Y             Y
43            21                6                        8                     3                               N                            Y              Y                     Y            N*
44            12               12                        0                    34                                Y                           N*             N                     Y             Y
45            31                6                        10                    0                               N                                                                 Y             Y
46            16                0                        24                    0                                Y                           Y              N                     Y            N*
47            7                34                        5                     0                                Y                                                               N*             Y
48            81                4                        35                    0                                Y                                                                Y             Y
49            12               22                        7                   114                                Y                           N              Y                     Y             Y
50            18                0                        17                    0                               N                            N              N                    N*             N



                                                              KEY
                                                              Initial Exams: Medical/Dental: “Y” indicates that initial
                                                              medical/dental examination was received within required
                                                              timeframes. “N” indicates examination was not received within
                                                              required timeframes. “N*” indicates that Medicaid claims data did
                                                              not support a positive finding, but evidence was found in the case
                                                              file to support the positive finding. “E” indicates child was exempt
                                                              from the requirements.

                                                              Current EPSDT Exams: Medical/Dental: “Y” indicates that an
                                                              EPSDT medical/dental examination was received according to
                                                              Texas Health Steps frequency timeframes. “N” indicates
                                                              examination was not received according to Texas Health Steps
                                                              frequency timeframes. “N*” indicates that Medicaid claims data
                                                              did not support a positive finding, but evidence was found in the
                                                              case file to support the positive finding. “E” indicates child was
                                                              exempt from the requirements.




                           O E I - 07 - 00 - 0 0 6 4 1        C H I L D R E N’ S U S E   OF   H EALTH C ARE S E R V I C E S WH I L E   IN   F O S T E R CA R E : T E X A S              21
        A P P E N D I X ~ D 




Level of Care Categories for Texas

                                      The Texas Department of Protective and Regulatory Services
                                      contracts with a behavioral health care company, Youth for
                                      Tomorrow, to assist in the implementation of the Level of Care
                                      (LOC) Service System.25 Youth For Tomorrow uses LOC definitions
                                      to determine a child's level of care service needs. Clinically-trained
                                      professionals use these definitions to synthesize their knowledge
                                      about a child's psychological and social functioning and then assign
                                      a single LOC rating from LOC 1 services to LOC 6 services. The
                                      LOC rating is determined in the context of a broad review of the
                                      clinical information submitted by the Department of Protective and
                                      Regulatory Services caseworker. 26


                                      Level of Care Definitions for Physical and Mental Health27


                                      Level of Care 1 Needs

                                      Medically Fragile and Developmentally Delayed: Medical condition 

                                      is maintained within the normal structure and supervision of a 

                                      family type environment. No additional services are necessary.


                                      Mental Health: Adequate functioning in all developmental and or 

                                      environmental areas. There may be transient difficulties, 

                                      "every-day" worries, and occasional misbehavior, but would be 

                                      regarded as a "normal" child; responds to "normal" discipline. The 

                                      caregiver provides routine home environment with guidance and 

                                      supervision to meet the needs of the child.


                                      Level of Care 2 Needs

                                      Medically Fragile and Developmentally Delayed: Medical condition 

                                      is maintained within the normal structure and supervision of a 

                                      family type environment. No additional services are necessary. 




                                      25The   Department of Protective and Regulatory Services is currently revising its
                                         policies to create a new system to replace the LOC service system. Once the new
                                         policies are developed, the LOC system will no longer be used. The information
                                         contained in this report reflects policy effective at the time of our review in 2001
                                         and 2002.

                                      26Retrieved          August 6, 2003, from http://www.yft.org/faq/initial_loc.htm.

                                      27Retrieved          August 6, 2003, from http://www.yft.org/loc_def.htm.


        O E I - 07 - 00 - 0 0 6 4 1   C H I L D R E N’ S U S E   OF   H EALTH C ARE S E R V I C E S WH I L E   IN   F O S T E R CA R E : T E X A S   22
A   P   P      E      N       D       I   X   ~   D

                                              Mental Health: No more than occasional problems in functioning in 

                                              any area, some acting-out behavior in response to life stresses, but 

                                              these are brief and transient; minimally disturbing to others, and 

                                              not considered deviant by those who know them. The caregiver 

                                              provides routine home environment with supplemental guidance 

                                              and discipline to meet the needs of the child.


                                              Level of Care 3 Needs

                                              Medically Fragile and Developmentally Delayed: Limited self-care 

                                              skills require minimal medical assistance. Follow-up medical 

                                              services and replacement of medical equipment are routine. The 

                                              child may be ambulatory with assistance. Verbal skills may be 

                                              limited to communicating basic needs. The child may have frequent 

                                              or repetitive minor behavioral problems requiring minimal 

                                              supervision and no more than a minimal risk to self or others. 


                                              Mental Health: Frequent or repetitive minor problems in one or 

                                              more areas; may engage in non-violent antisocial acts, but is 

                                              capable of meaningful interpersonal relationships. Requires 

                                              supervision in structured, supportive setting with counseling 

                                              available from professional or paraprofessional staff.


                                              Level of Care 4 Needs

                                              Medically Fragile and Developmentally Delayed: Requires ongoing 

                                              assistance in order to perform essential self-care or independent 

                                              living skills. Medical involvement requires on-site staff skilled in 

                                              providing appropriate medical assistance with a nurse available on 

                                              an on -call basis. Periodic adjustments or replacement of medical 

                                              equipment may be necessary. The child may be non -ambulatory or 

                                              limited to nonverbal communications. The child may have 

                                              substantial behavioral problems that require constant supervision 

                                              and be no more than a moderate risk to self or others. 


                                              Mental Health: Substantial problems; has physical, mental, or 

                                              social needs and behaviors that may present a moderate risk of 

                                              causing harm to themselves or others, poor or inappropriate social 

                                              skills, frequent episodes of aggressive or other antisocial behavior 

                                              with some preservation of meaningful social relationships; requires 

                                              treatment program in a structured setting with therapeutic 

                                              counseling available by professional staff.


                                              Level of Care 5 Needs

                                              Medically Fragile and Developmentally Delayed: Requires total 

                                              care with all essential self-help skills. The child may be 

                                              non-ambulatory or confined to bed. Medical involvement may 


        O E I - 07 - 00 - 0 0 6 4 1           C H I L D R E N’ S U S E   OF   H EALTH C ARE S E R V I C E S WH I L E   IN   F O S T E R CA R E : T E X A S   23
A   P   P      E      N       D       I   X   ~   D


                                              require 24-hour on -site (campus) medical or nursing supervision
                                              with continuous medical equipment necessary to sustain life
                                              support. The child may have severe behavioral problems that
                                              require close 24-hour supervision and is a severe risk to self or
                                              others.

                                              Mental Health: Severe problems, unable to function in multiple areas.
                                              Sometimes willing to cooperate when prompted or instructed, but may
                                              lack motivation or ability to participate in personal care or social
                                              activities or is severely impaired in reality testing or in communications.
                                              May exhibit persistent or unpredictable aggression, be markedly
                                              withdrawn and isolated due to either mood or thought disturbance, or
                                              make suicidal attempts. Presents a moderate to severe risk of causing
                                              harm to self or others. Requires 24-hour supervision by multiple staff in
                                              limited access setting.


                                              Level of Care 6 Needs
                                              Medically Fragile and Developmentally Delayed: N/A

                                              Mental Health: Very severe impairment(s), disabilities or needs,
                                              consistently unable or unwilling to cooperate in own care. May be
                                              severely aggressive or exhibit self-destructive behavior or grossly
                                              impaired in reality testing, communication, cognition, affect, or
                                              personal hygiene. May present severe to critical risk of causing
                                              serious harm to self or others. Needs constant supervision (24-hour
                                              care) with maximum staffing, in a highly structured setting.




        O E I - 07 - 00 - 0 0 6 4 1           C H I L D R E N’ S U S E   OF   H EALTH C ARE S E R V I C E S WH I L E   IN   F O S T E R CA R E : T E X A S   24
          A P P E N D I X ~ E 




Analysis of Medical History and Level of Care



         Level of Care/                  Did Receive History                              Did Not Receive History                                      Total
  Received Medical History
Level of care 1-3                                         12                                               17                                           29
Level of care 4-6                                         15                                               6                                            21
Total                                                     27                                               23                                           50



                                        p = 0.0354 (degrees of freedom = 1; chi-square = 4.4275)




          O E I - 07 - 00 - 0 0 6 4 1   C H I L D R E N’ S U S E   OF   H EALTH C ARE S E R V I C E S WH I L E   IN   F O S T E R CA R E : T E X A S           25

    A P P E N D I X ~ F 



Agency Comments - ACF




    O E I - 07 - 00 - 0 0 6 4 1   C H I L D R E N’ S U S E   OF   H EALTH C ARE S E R V I C E S WH I L E   IN   F O S T E R CA R E : T E X A S   26

A   P   P      E      N      D        I   X   ~       F




        O E I - 07 - 00 - 0 0 6 4 1               C H I L D R E N’ S U S E   OF   H EALTH C ARE S E R V I C E S WH I L E   IN   F O S T E R CA R E : T E X A S   27

       A P P E N D I X ~ G 



Agency Comments - CMS




       O E I - 07 - 00 - 0 0 6 4 1   C H I L D R E N’ S U S E   OF   H EALTH C ARE S E R V I C E S WH I L E   IN   F O S T E R CA R E : T E X A S   28

A C K N O W L E D G M E N T S 



                              This report was prepared under the direction of Brian Pattison,
                              Regional Inspector General for Evaluation and Inspections in
                              the Kansas City Regional Office, and Gina Maree, Assistant
                              Regional Inspector General. Other principal Office of Evaluation
                              and Inspections staff who contributed include:

                              Deborah Walden, Team Leader

                              Steven Milas, Lead Analyst

                              Linda Paddock, Program Analyst

                              Michala Walker, Program Analyst

                              Brian T. Whitley, Program Analyst

                              Linda Hall, Program Specialist (Washington, D.C.)

                              Barbara Tedesco, Mathematical Statistician (Baltimore)




O E I - 07 - 00 - 0 0 6 4 1   C H I L D R E N’ S U S E   OF   H EALTH C ARE S E R V I C E S WH I L E   IN   F O S T E R CA R E : T E X A S   29
